February 18, 2010

AREA VICE PRESIDENTS

SUBJECT: Audit Report – Postal Service Absenteeism
         (Report Number HM-AR-10-001)

This report presents the results of our audit of Postal Service Absenteeism (Project
Number 09YG016HM000). Our overall audit objective was to determine if the Postal
Service's absenteeism rate is comparable with the rate of the private and federal
sectors and, if not, to determine the potential causes. We were also asked to determine
if sick leave usage by Postal Service employees in the Civil Service Retirement System
(CSRS) was less than that of employees in the Federal Employees Retirement System
(FERS) who are 3 to 4 years from retirement. This report responds to a request from
the Deputy Postmaster General and Chief Operating Officer to review Postal Service
absenteeism. This audit addresses financial risk. See Appendix A for additional
information about this audit.

Conclusion

The Postal Service’s total absenteeism rate for major benefits is comparable to the total
absenteeism rate of the federal sector, but higher than that of the civilian sector.1 We
identified two potential causes for the difference between the Postal Service and the
civilian sector absenteeism rates — the Postal Service offers more leave benefits than
the civilian sector and they offer fewer incentives for employees to accumulate leave. In
addition, we determined some supervisors were not complying with attendance control
procedures related to unscheduled absences. We also determined that CSRS and
FERS retirees use comparable amounts of sick leave in the last years before they retire.

Comparison to Federal and Civilian Sectors

The Postal Service’s total absenteeism rate for major benefits2 is comparable to the
Office of Personnel Management (OPM) rate for federal employees. However, it was
almost double the Bureau of Labor Statistics’ (BLS) rate for private industry and



1
  The Bureau of Labor Statistics (BLS) defines the civilian sector as both the private industry and state and local
government sectors.
2
  Major benefits include sick leave, annual leave, personal leave, and holidays.
Postal Service Absenteeism                                                                         HM-AR-10-001



approximately 4 percent higher than the state and local government rate.3 The higher
absenteeism rates of the Postal Service and the federal sector may be due to the fact
that, comparatively, they offer more leave benefits (more hours) and fewer incentives to
employees to bank leave. We are not making any recommendations regarding these
findings.

Controls Over Unscheduled Absences

We estimated supervisors did not comply with Postal Service policies and procedures
regarding unscheduled absences for at least 11,468 employees nationwide. We
identified several causes, including lack of training, supervisors not using the Enterprise
Resource Management System (eRMS) as the system of record for controlling
unscheduled absences, and insufficient oversight. In addition, Labor Relations
indicated they did not have adequate resources to monitor attendance control. As a
result, overtime was used to cover 17.4 percent of the unscheduled sick leave4 and the
Postal Service could have saved $4.0 million in overtime costs by following proper
attendance control procedures during the 12-month audit period.5 Postal Service
officials are responsible for administering the leave program and controlling
unscheduled absences, while its employees are responsible for avoiding these types of
absences.6 Labor Relations professionals stated they provided supervisors with training
on attendance control and advice on proper corrective actions; however, opportunities
exist to improve oversight and reduce unscheduled absences. See Appendix B for our
detailed analysis of this topic.

We recommend the area vice presidents require district managers to:

1. Provide refresher training to supervisors to ensure they are aware of unscheduled
   leave policies and procedures and the importance of following them.

2. Establish and implement internal controls to evaluate and ensure supervisors’
   compliance with unscheduled leave policies and procedures (for example,
   performance and accountability measures or periodic management reviews).

3. Require supervisors and labor relations specialists to use the Enterprise Resource
   Management System to record employees’ inability to meet position requirements,
   corrective actions taken, and grievance data.


3
  We attempted to quantify comparisons between union and non-union employee absenteeism. However, OPM
leave data was provided by agency only and not union vs. nonunion. In addition, we were unable to reconcile data
anomalies in the Postal Service’s Enterprise Data Warehouse (EDW) and Payroll systems to allow for a union vs.
nonunion comparison.
4
  We did not claim monetary impact for unscheduled annual leave because unused annual leave hours represent a
liability the Postal Service will pay out whether employees take leave or not.
5
  Unrecoverable questioned costs are costs that are unnecessary, unreasonable or an alleged violation of law or
regulation.
6
  Employee and Labor Relations Manual (ELM) Issue 19.2, Section 511, April 2008 (updated with Postal Bulletin
revisions through May 7, 2009).




                                                        2
Postal Service Absenteeism                                                                      HM-AR-10-001




Management’s Comments

Management generally agreed with the findings and recommendations. Specifically,
seven of the eight areas agreed with all three recommendations. Great Lakes area
management agreed with recommendations one and two, but disagreed with
recommendation three. They stated based on current Memorandums of Understanding
(MOUs) with various unions, supervisors, and labor relations specialists should not
document corrective actions and grievance data in an open system, because this could
be viewed as a violation. Additionally, Eastern and Southeast area management
commented on the accuracy of our monetary impact. Management’s comments, in their
entirety, are included in Appendix E. Some area vice presidents also provided
extensive documentation that supports their corrective actions. Although we have not
included this information in this report, it is available upon request.

Evaluation of Management’s Comments

Overall, the OIG considers management’s comments responsive to the
recommendations, and the corrective actions should resolve the issues identified in the
report. Regarding the Great Lakes area management’s disagreement to
recommendation 3, we reviewed the MOUs in question and determined they do not
preclude management from implementing this recommendation. Additionally, the
Privacy Act restricts disclosure of personally identifiable information by agencies and
prescribes penalties for improper disclosure. 7 Our recommendations are consistent
with the routine uses contained in Postal Service policy, as all Postal Service
employees are responsible for protecting such information, and its use would not
excuse improper dissemination that could arise from access and use.8

The OIG considers all three recommendations significant, and therefore requires OIG
concurrence before closure. Consequently, the OIG requests written confirmation when
corrective actions are completed. These recommendations should not be closed in the
Postal Service follow-up tracking system until the OIG provides written confirmation that
the recommendations can be closed.

Retirement and Sick Leave

CSRS employees receive service credit for unused sick leave at retirement while, until
recently, FERS employees did not.9 Many people in the federal government have long
suspected that the lack of service credit for FERS employees contributes to a higher
use of sick leave 3 to 4 years before retirement. We determined that in the Postal
7
  Privacy Act of 1974 (5 U.S.C. 552a).
8
  Handbook, AS-353, Guide to Privacy, the Freedom of Information Act, and Records Management, September 2005,
updated with Postal Bulletin revisions through September 24, 2009.
9
  On October 28, 2009, the president signed H.R. 2647, National Defense Authorization Act for Fiscal Year 2010,
which provides FERS employees a 50 percent service credit for separations up to December 31, 2013 and a full
service credit for separations after December 31, 2013.




                                                       3
Postal Service Absenteeism                                                  HM-AR-10-001



Service, CSRS and FERS retirees use comparable amounts of sick leave in the last
years before they retire. We also found that FERS employees use more of their sick
leave throughout their careers and not just at the end. See Appendix B for our detailed
analysis of this topic. We are not making any recommendations regarding these
findings.

We appreciate the cooperation and courtesies provided by your staff. If you have any
questions or need additional information, please contact Andrea Deadwyler, director,
Human Resources and Security, or me at (703) 248-2100.

      E-Signed by Mark Duda
 VERIFY authenticity with ApproveIt




Mark W. Duda
Deputy Assistant Inspector General
 for Support Operations

Attachments

cc: Anthony J. Vegliante
    Sally K. Haring




                                           4
Postal Service Absenteeism                                                                   HM-AR-10-001



                         APPENDIX A: ADDITIONAL INFORMATION

BACKGROUND

Career Postal Service employees earn sick and annual leave and 10 paid holidays.
Specifically, employees earn 104 sick leave hours each year and between 104 and 208
hours of annual leave each year depending on their years of service. Employees can
carry sick leave forward into future years with no limit. However, the limits on unused
annual leave carried forward are 440 and 560 hours for bargaining and non-bargaining
employees, respectively. Leave without pay is also available in certain circumstances
and can be used in conjunction with annual and sick leave.10 Federal employees have
the same annual and sick leave benefits as the Postal Service except they can carry
forward up to 720 hours of unused annual leave.11

Absenteeism occurs when employees do not report to work or adhere to their regular
schedules. Employee absences are usually due to illness or injury, vacation,
emergencies, holidays, or personal time off. An unscheduled absence is when an
employee does not request or receive approval prior to the absence. Supervisors are
responsible for controlling scheduled and unscheduled absences based on operational
needs. Employees are expected to maintain assigned schedules and avoid
unscheduled absences. Employees who do not have regular attendance are subject to
disciplinary action, including removal from the Postal Service.

Regarding the use of sick leave within 3 or 4 years of retirement, management has
suspected the lack of service credit for unused sick leave in computing retirement
annuities for FERS employees results in higher use of sick leave by these employees
compared to CSRS employees who receive the credit. Most Postal Service employees
are in FERS and many FERS employees are becoming eligible for retirement. Postal
Service officials are concerned that many FERS employees have opted to use their sick
leave rather than forfeit it at retirement.

According to the OPM, the federal government could reduce some sick leave FERS
employees take by providing a service credit similar to the CSRS. Congress responded
to concerns on this issue by passing a bill that provides a FERS service credit for sick
leave, which the president signed on October 28, 2009.

OBJECTIVES, SCOPE, AND METHODOLOGY

Our objectives were to determine if the Postal Service's fiscal year (FY) 2008
absenteeism rate is comparable with the private and federal sectors and, if not,
determine the potential causes. We were also asked to determine if sick leave use by

10
  ELM, Section 510
11
  The 720 hour carryover limit is for executives, scientists, and certain professional employees while the
majority of federal workers can only carryover 240 hours. The number of hours carried forward also
depends upon whether employees are stationed within the United States or overseas.




                                                     5
Postal Service Absenteeism                                                                           HM-AR-10-001



CSRS employees was lower than that of FERS employees in the years before they
retire.

To accomplish our first objective we obtained the following:

        FY 2008 Postal Service leave rates from the payroll system and EDW for
         bargaining and non-bargaining employees.

        Federal leave rates from the OPM for Calendar Years (CYs) 2001-2005.12

In addition, we requested the BLS to tabulate unpublished leave provided by employer
benefit packages in the National Compensation Survey.

To determine potential causes for the differences in the absenteeism rates, we:

        Reviewed applicable Postal Service policies, regulations, and union agreements.

        Hosted an April 2009 online web log (blog) and invited readers to participate in a
         survey on sick leave use.13

        Obtained eRMS and Time and Attendance Collection System (TACS) records for
         the 12-month period ending March 31, 2009 and identified a population of 58,864
         employees with 20 or more unscheduled absences.14

        Randomly selected 20 employees with 20 or more unscheduled absences from
         10 randomly selected districts. This resulted in a total sample size of 200
         employees from our target population of 58,864.15 See Appendix C.

        Interviewed supervisors and leave control personnel and reviewed Key Indicator
         Reports for all 200 employees.16

        Reviewed letters of warning, suspension notices, removal actions, and grievance
         resolutions associated with the sampled employees.

        Reviewed supervisor entries in eRMS for evidence of actions and/or reviews
         related to unscheduled absences.



12
   OPM provided us with unpublished data from their Work Years and Personnel Costs studies; however, more
current information was not available. While the periods are different, we believe the rates are comparable because
the year-to-year differences in the federal rates were not material.
13
   While we did not authenticate survey respondents and there is a risk that someone may have intentionally provided
incorrect information for the survey, we believe people are generally honest and that the results are reliable.
14
   The 20 or more unscheduled absences represent all unscheduled absences in any leave category.
15
   The 200 employees included 193 bargaining and 7 non-bargaining employees.
16
   Key Indicator Reports are eRMS system-generated reports supervisors use to conduct attendance reviews.




                                                         6
Postal Service Absenteeism                                                                         HM-AR-10-001



We reviewed Leave Management for Labor Relations Professionals, eRMS Technology,
Principles of Leave Management (Guide), dated October 2008, which identifies Postal
Service policies for leave program elements, including supervisory training,
documentation procedures, and supervisory accountability.

To determine the monetary impact of unscheduled absences we:

        Estimated the percentage of overtime used to cover unscheduled absences
         based on supervisor interviews.

        Compared average sick leave taken in our population to average sick leave
         taken among all qualifying Postal Service employees.

        Estimated unscheduled sick leave hours that management could have reduced
         over the 1-year period ending March 30, 2009, if sampled employees had taken
         the same amount of leave as the average Postal Service employee and
         estimated the overtime costs associated with those hours.

To determine if the sick leave use of CSRS employees was less than that of FERS
employees 3 to 4 years before retirement, we obtained and reviewed sick leave balance
and usage information for voluntary retirements in CYs 2005-2007.17

We conducted this performance audit from January through December 2009 in
accordance with generally accepted government auditing standards and included such
tests of internal controls as we considered necessary under the circumstances. Those
standards require that we plan and perform the audit to obtain sufficient, appropriate
evidence to provide a reasonable basis for our findings and conclusions based on our
audit objective. We believe that the evidence obtained provides a reasonable basis for
our findings and conclusions based on our audit objective. We discussed our
observations and conclusions with management officials on December 7, 2009, and
included their comments where appropriate.

To assess the reliability of eRMS data, we reviewed and discussed attendance records
with supervisors and reviewed the data for compliance with business rules. In addition,
we verified the data from TACS with the applicable supervisors. While we identified
some errors in the eRMS data, they do not affect our results and conclusions. We did
not assess the reliability of unpublished BLS data; however, we discussed data
collection and statistical procedures with BLS statisticians and were satisfied that the
data was reliable for comparison purposes.




17
     Because employees retire throughout the year, we looked at the 3-4 years before retirement.




                                                           7
     Postal Service Absenteeism                                                                         HM-AR-10-001



     PRIOR AUDIT COVERAGE

                                                 Final
                             Report             Report           Monetary
      Report Title           Number               Date            Impact                    Report Results
Fort Worth                NO-AR-09-009         9/14/2009                 $0     Family Medical Leave Act (FMLA)
Processing and                                                                  leave at the Fort Worth P&DC
Distribution Center                                                             affected the plant’s ability to
Delayed Mail Issues                                                             adequately staff its mail processing
                                                                                operations.18 Management agreed
                                                                                with the findings and provided
                                                                                attendance management training to
                                                                                supervisors and modified their
                                                                                staffing plan.
Timeliness of Mail        DR-AR-09-008          7/6/2009                  $0    Some delivery unit locations had
Delivery Operations-                                                            difficulty delivering mail in a timely
Albuquerque District –                                                          manner resulting in service
Albuquerque City                                                                declines, customer complaints, and
Delivery Unit                                                                   negative media attention. The
Locations                                                                       audit identified carrier attendance
                                                                                issues that factored into the
                                                                                delayed mail volumes.
                                                                                Management agreed with the
                                                                                findings and initiated a process to
                                                                                ensure that supervisors adhere to
                                                                                their responsibilities.
Controls Over             CRR-AR-09-           1/23/2009         $7.2 million   Controls over manual processing of
Supervisor Leave          002                                                   supervisor leave were insufficient
                                                                                to ensure management approved
                                                                                the leave and recorded it in the
                                                                                TACS. Management agreed with
                                                                                the recommendations.
Summary Audit on the      NO-AR-08-003         3/28/2009         $231 million   A high number of carriers on limited
Timeliness of Mail                                                              duty and sick leave significantly
Processing,                                                                     reduced Chicago’s ability to staff
Transportation, and                                                             the routes, which contributed to
Delivery Operations in                                                          mail delays, service degradation,
the Chicago District                                                            and customer complaints.
                                                                                Management agreed with the
                                                                                findings and directed supervisors to
                                                                                address unscheduled absences.




     18
       The FLMA allows federal employees to use a total of 12 administrative work weeks of unpaid leave during any
     12-month period for specified family and medical needs.




                                                             8
Postal Service Absenteeism                                                                          HM-AR-10-001



                                APPENDIX B: DETAILED ANALYSIS

Comparison of Absenteeism Rates

The Postal Service’s total absenteeism rate for major leave benefits is equivalent to the
OPM federal sector rate, almost double the BLS rate for private industry, and almost 4
percent higher than the BLS state and local government rates. See Table 1.

         Table 1: Comparison of Absenteeism Rates for Major Leave Benefits
                                    (Percentage)
                                                                     Subtotal
                                Sick     Annual            Personal    Major
                               Leave     Leave   Holiday     Leave    Leave
 Postal Service                 4.14      8.28     3.21      N/A19     15.63
 Federal Sector                 3.69      8.15     3.50       N/A      15.34
 Private Industry               1.49      4.28     2.98       0.58     8.3220
 State and Local Governments    2.45      5.91     4.18       0.72    12.0221
Source: Postal Service payroll data for FY 2008; OPM federal agency data for CYs 2001 – 2005 (average); BLS
occupational equivalent rates for private industry and state and local governments from December 2008 Employment
Cost Index.

Note: The absenteeism rates are the average percentage of leave used per employee based on a 2,080 work-hour
year.

The Postal Service and federal sector’s higher absenteeism rates are likely due to the
fact that their employees have more paid leave hours available to them than civil sector
employees. For example, Postal Service and federal employees accrue 13 days of paid
sick leave and 13 to 26 days of paid annual leave each year (based on years of
service). Private sector employers on the other hand provide employees, on average,
about 11 days of annual leave and state and local governments approximately 15 days.
In addition, many state governments offer cash payouts to employees for portions of
their unused accrued sick leave, which is an incentive to bank or save leave. Although
the Postal Service offers cash payouts for annual leave, it does not offer the same
benefit for sick leave.

Controls Over Unscheduled Absences

Supervisors did not follow policies and procedures for controlling unscheduled
absences for 87 out of 200 sampled employees. We found 80 of the 87 employees did
not receive adequate, timely, or any corrective action at all and averaged 40 non-FMLA
unscheduled absences for the 12-month period ending March 31, 2009. In addition, 22
of the 80 employees either suffered from injuries or illnesses, were enrolled in work
restriction programs, or had personal issues that prevented them from returning to work
19
   Personal leave is not available to Postal Service bargaining (craft) employees. Non-bargaining employees are
entitled to use personal leave; however, we could not calculate the rates because the hours are not tracked.
20
   Subtotal includes employees eligible for at least one of the four major leave benefits.
21
   See footnote 14.




                                                         9
Postal Service Absenteeism                                                                           HM-AR-10-001



or having regular attendance.22 This included frequent or extended absences that
averaged 62 non-FMLA unscheduled absences. Supervisors did not submit
comprehensive reports documenting the employees’ inability to meet position
requirements to the area manager of Human Resources. They also did not question the
absences or document steps to support employee entitlements in eRMS and often
keyed unintelligible entries to clear system notifications or did not record anything at all.

Contract interpretation manuals require supervisors to take disciplinary action as
promptly as possible after an employee commits an offense. Additionally, Postal
Service policy requires supervisors to document employees’ inability to meet their
position requirements. This ensures there is sufficient evidence to support contractual
or legal entitlements such as Office of Workers’ Compensation Program (OWCP)
benefits and FMLA protections. For example, after 1 year of continuous absence
without pay or enrollment in the OWCP, an employee who has been absent because of
illness or injury may be separated for disability if it is unlikely that employee will return to
work. Postal Service officials stated supervisors should consider corrective action when
employees are absent for non-FMLA medical reasons.

For seven out of 87 employees, Postal Service officials repeatedly reduced the severity
of discipline or expunged letters of warning from employees’ files and did not document
in eRMS a corresponding cause or benefit to the Postal Service. As a result,
supervisors issued redundant corrective actions that were non-progressive. Contract
interpretation manuals state that management should issue corrective discipline in a
progressive manner and it should be increasingly severe for each succeeding offense.
Consequently, we do not consider redundant disciplinary action to be progressive.
Some Labor Relations managers agreed that repeated corrective actions are an
inefficient use of time and resources, while others defended the practice stating that
discipline should be corrective and not punitive. Based on the 87 sample employees,
we estimated supervisors did not follow policies and procedures for at least 11,468
employees with 20 or more unscheduled absences nationwide. See Appendix C.

We identified the following causes for supervisors’ non-compliance with policies and
procedures:

        Supervisors did not fully understand the effect of not following policies and
         procedures;

        Some supervisors did not have knowledge of the policies and procedures (40 out
         of 87);

        Management provided insufficient oversight (21 out of 87);

        Other duties took priority (14 out of 87);
22
   These were limited duty, rehabilitation, or light duty programs. Management provides limited duty to employees
injured on the job. Light duty programs are for employees injured off the job.




                                                         10
Postal Service Absenteeism                                                    HM-AR-10-001




      Human errors (10 out of 87); and

      Some supervisors had a desire to reduce the number of grievances (2 out of 87).

In addition, Labor Relations professionals did not annotate eRMS to reflect current
information concerning administrative actions, attendance-related grievances, and
attendance reviews.

Additionally, 17 (out of 87) supervisors interviewed indicated they had not received
current FMLA or attendance control training. Further, a total of 503 supervisor
respondents to our sick leave survey stated:

     They have not received adequate training (20 percent);

     It is acceptable for employees to use sick leave in lieu of annual leave when they
       approach retirement or separation (32 percent); and

     They often approve leave without knowing an employee’s leave balance
      (15 percent).

We discussed training programs with Labor Relations managers who said the lack of
corrective action demonstrates an absence of accountability at the supervisory level
rather than a lack of training. However, they suggested refresher training courses (such
as e-learning courses) to reinforce supervisor responsibilities.

When supervisors are not held accountable for properly maintaining attendance records
and supporting documentation, it diminishes the Postal Service’s ability to take
corrective action and to effectively address issues grieved through the
grievance-arbitration procedures. Additionally, when managers reduce discipline
without cause or benefit to the Postal Service, the organization’s ability to correct
problems is diminished because employees have less incentive to improve their
attendance.

We statistically projected at least 1.6 million unjustified, unscheduled sick leave hours
for at least 11,468 employees whose supervisors did not comply with policies and
procedures regarding unscheduled absences. We estimated the Postal Service could
have reduced the use of the unjustified, unscheduled sick leave by 661,553 hours if
supervisors followed policies and procedures. When employees are absent from work,
particularly for unscheduled sick leave, management occasionally uses overtime hours
to cover the work of those employees at an increased cost to the Postal Service.
Supervisors indicated an estimated 17.4 percent of the hours employees spend on




                                           11
Postal Service Absenteeism                                                                                 HM-AR-10-001



unscheduled leave are covered by overtime workhours.23 Based on these estimates,
the Postal Service could have saved approximately $4.0 million in overtime costs for
the period April 1, 2008 through March 30, 2009. See Appendix D.

In addition to the overtime costs, prior U.S. Postal Service Office of Inspector General
audit reports stated service degradation and operational disruptions occur when
supervisors do not control unscheduled absences.

Retirement and Sick Leave

The Postal Service studied FERS and CSRS sick leave for retired individuals and found
that CSRS employees retained a higher percentage of their sick leave as a percentage
of earned sick leave over their career. We reviewed Postal Service data and confirmed
that CSRS employees retained 28.6 percent of sick leave earned over their career
compared to 17.5 percent for FERS employees. See Chart 1.

      Chart 1. Sick Leave Balances for Postal Service Retirees (FYs 2005-2007)


                              1500

                              1000
                  Hours
                               500
                                                                                                           FERS
                                   0                                                                       CSRS
                                            < 10        10‐19        20‐29        30 or 
                                           Years        Years        Years        More 
                                                                                  Years


We determined that, while both FERS and CSRS employees use more sick leave in the
3 to 4 years before retirement, FERS employees use more of their sick leave throughout
their careers and not just at the end. Management noted that CSRS and FERS retirees
used the same amount of sick leave at retirement and attributed this to discrepancies in
age and career length.




23
  Subsequent to the completion of audit fieldwork, Postal Service officials informed the audit team that they recently
implemented an “Available for Duty” report that can provide an actual overtime replacement rate. The audit team did
not evaluate or validate the data contained in the report, therefore, did not include data from the report in our results.




                                                            12
Postal Service Absenteeism                                                 HM-AR-10-001



In our survey, 32 percent of Postal Service supervisors agreed it is acceptable to use
sick leave in lieu of annual leave as an employee approaches retirement. In addition,
86 percent of supervisors agreed FERS has increased the improper use of sick leave.
Similarly, 64 percent of Postal Service employees who responded to the survey believe
sick leave is an earned benefit and, therefore, can be used whenever needed.




                                          13
Postal Service Absenteeism                                                      HM-AR-10-001



            APPENDIX C: STATISTICAL SAMPLING METHODOLOGY FOR
            EMPLOYEES WITH 20 OR MORE UNSCHEDULED ABSENCES

Purpose of the Sampling

We had two objectives: (1) to estimate the proportion (or number) of employees with
twenty or more unscheduled absences over the 1-year period ending March 30, 2009
whose supervisors did not take appropriate actions and (2) to estimate the number of
unscheduled sick leave hours associated with these employees over the same period.
In support of these objectives, we employed a two-stage random sample.

Definition of the Audit Universe

The total audit universe (population) consisted of 58,864 Postal Service employees
nationwide with 20 or more unscheduled absences over the 1-year period ending March
30, 2009. This universe was identified from information in the Enterprise Resource
Management System and extracted from it.

Sample Design

We had two simultaneous objectives. The first objective required an attribute analysis
and the second objective required a variable analysis. We based our sample size on a
two-stage random attribute sample. We estimated the required sample size for a
two-sided confidence interval, at the 95 percent confidence level, and +- 7 percent
absolute precision. We estimated the required sample size to be 200.

Statistical Projections of the Sample Data

For the attribute and variable portions of our analysis, the precision achieved did not fall
within our internal reporting standards; therefore, we are reporting the lower bound of a
two-sided confidence level for each. We are 95 percent confident the proportion of the
target population for which appropriate supervisor action was not taken is at least 19.48
percent (11,468 employees). We are also 95 percent confident the sick leave hours
used by employees in our target population over the 1-year period ending March 30,
2009, for which appropriate supervisor action was not taken, is at least 1,599,216.




                                             14
Postal Service Absenteeism                                                                                 HM-AR-10-001



                                    APPENDIX D: MONETARY IMPACT

                           Calculation of Unrecoverable Questioned Costs

                                                                                                        
                   Estimated Reduction - Unscheduled Sick
                   Leave Hours                                                              661,553
                   Overtime Replacement Rate                                                17.36%
                   Total Questioned Overtime Hours                                          114,846
                   Weighted Average Overtime Rate                                            $34.65

                       Unrecoverable Questioned Costs24                            $3,979,811.30




24
     Unrecoverable costs that are unnecessary, unreasonable, or an alleged violation of law or regulation.




                                                            15
Postal Service Absenteeism                                 HM-AR-10-001



                       APPENDIX E: MANAGEMENT’S COMMENTS




                                      16
Postal Service Absenteeism        HM-AR-10-001




                             17
Postal Service Absenteeism        HM-AR-10-001




                             18
Postal Service Absenteeism        HM-AR-10-001




                             19
Postal Service Absenteeism        HM-AR-10-001




                             20
Postal Service Absenteeism        HM-AR-10-001




                             21
Postal Service Absenteeism        HM-AR-10-001




                             22
Postal Service Absenteeism        HM-AR-10-001




                             23
Postal Service Absenteeism        HM-AR-10-001




                             24
Postal Service Absenteeism        HM-AR-10-001




                             25
Postal Service Absenteeism        HM-AR-10-001




                             26
Postal Service Absenteeism        HM-AR-10-001




                             27
Postal Service Absenteeism        HM-AR-10-001




                             28
Postal Service Absenteeism        HM-AR-10-001




                             29
Postal Service Absenteeism        HM-AR-10-001




                             30
Postal Service Absenteeism        HM-AR-10-001




                             31
